Lard v. State
Supreme Court of Arkansas
March 12, 2020, Opinion Delivered
No. CR-19-351
Reporter
2020 Ark. 110 *; 595 S.W.3d 355 **; 2020 Ark. LEXIS 105 ***

Leslie Rutledge, Att'y Gen., by: Rebecca Kane,
Ass't Att'y Gen., for appellee.

JERRY LARD, APPELLANT v. STATE OF
ARKANSAS, APPELLEE

Notice: THE LEXIS PAGINATION OF THIS
DOCUMENT IS SUBJECT TO CHANGE
PENDING RELEASE OF THE FINAL
PUBLISHED VERSION.

Judges: RHONDA K. WOOD, Associate Justice.
Special Justice GREGORY L. VARDAMAN joins.
WYNNE, J., concurs. HART, J., dissents. KEMP,
C.J., not participating.

Opinion by: RHONDA K. WOOD
Subsequent History: Rehearing denied by Lard v.
State, 2020 Ark. LEXIS 173 (Ark., Apr. 30, 2020)

Opinion
Prior History: [***1] APPEAL FROM THE
GREENE COUNTY CIRCUIT COURT. NO.
28CR-12-173. HONORABLE BRENT DAVIS,
JUDGE.

[**356] [*1] RHONDA K. WOOD, Associate
Justice

Lard v. State, 2014 Ark. 1, 431 S.W.3d 249, 2014
Ark. LEXIS 9 (Ark., Jan. 9, 2014)

Jerry Lard, who has been sentenced to death for
capital murder, appeals the circuit court's order that
he can waive his right to postconviction relief,
including his Rule 37.5 petition. Additionally, he
appeals the circuit court's declining to address
whether he is constitutionally ineligible for the
death penalty due to mental disability. We affirm.

Disposition: AFFIRMED.

I. Background

Counsel: Short Law Firm, by: Lee D. Short, for
appellant.

A Greene County jury convicted Lard of capital
murder, attempted capital murder, and possession
of a controlled substance and sentenced him to
consecutive sentences of death, life in prison, and
ten years in prison. Lard appealed his conviction,
and in 2014, we affirmed. Lard v. State, 2014 Ark.

Appendix A - 1

Page 2 of 6
2020 Ark. 110, *1; 595 S.W.3d 355, **356; 2020 Ark. LEXIS 105, ***1

1, 431 S.W.3d 249.
In 2015, Lard filed a petition for postconviction
relief with the circuit court pursuant to Arkansas
Rule of Criminal Procedure 37.5. He argued that
his
counsel
was
[*2]
constitutionally
ineffective [***2] for failing to sufficiently
investigate whether he was intellectually disabled.
The circuit court initiated a Rule 37.5 hearing
during which Lard's counsel presented the
testimony of Dr. Daniel Reschly, an experienced
psychologist with a doctorate in philosophy who
evaluated Lard after his conviction. Dr. Reschly
diagnosed him with mild intellectual disability.
After Dr. Reschly testified, the court recessed the
hearing to allow the State to prepare its crossexamination of Dr. Reschly and to retain a rebuttal
expert.

necessary to prove his intellectual disability. To the
extent Lard now argues that he should not have
been sentenced to death because of his intellectual
disability, the circuit court had to determine
whether Lard was competent to waive before
considering this and any other post-conviction
arguments. Because, as discussed below, Lard has
waived his postconviction remedies, Lard also has
waived this argument.

Additionally, Lard argues that he is ineligible for
execution because his expert diagnosed him with
mild intellectual disability. The Supreme Court in
Atkins v. Virginia categorically prohibited the
execution of mentally disabled individuals. 536
U.S. 304, [**357] 122 S. Ct. 2242, 153 L. Ed. 2d
335 (2002) (forbidding imposition of the death
penalty on persons who are intellectually disabled).
After Lard asked the circuit court to dismiss his
In the interim, Lard's postconviction counsel was Rule 37.5 petition, Lard filed a "Motion for Postpermitted to withdraw after asserting that his Conviction [***4] Hearing" asserting, "there exists
relationship with Lard was "irreparably harmed." credible evidence . . . that Defendant is not eligible
Newly appointed counsel advised the circuit court to be executed." Lard similarly argues on appeal
that Lard desired to waive his postconviction that, "This Court should . . . reverse and remand the
remedies, including his Rule 37.5 petition, which case for a hearing on the issue of Lard's intellectual
counsel asked the court to dismiss. The circuit court disability as a bar to his execution." The circuit
suspended the Rule 37.5 hearing and ordered Lard court also refused to address this argument and
to undergo an independent psychological limited the hearing to the issue of competency to
evaluation. After that evaluation, the circuit court waive. Lard claims the circuit court's refusal to
held a hearing to determine whether Lard had the consider this issue was erroneous. However, this
capacity to waive his postconviction remedies. argument is not currently ripe for our review
Based on the evidence submitted at the hearing, the because Lard's execution date has not been set. See
circuit court concluded that Lard's waiver was Isom v. State, 2015 Ark. 219, 462 S.W.3d 638;
made knowingly and intelligently [***3] and with Nooner v. State, 2014 Ark. 296, 438 S.W.3d 233;
the capacity to choose between life and death. Lard see also Roberts v. State, 2020 Ark. 45. When an
appeals.
execution date has been scheduled, the issue will be
ripe as to the experts' disagreement whether Lard's
II. Analysis
current mental status is such that he cannot be [*4]
executed. Therefore, as a matter of law, we find
A. Ineligible for Death Penalty Due to Mild
that the circuit court correctly refused to decide
Intellectual Disability
whether Lard can be executed due to an intellectual
First, in his Rule 37.5 petition, Lard argued that disability.
under Ark. Code Ann. § 5-4-618, he could not have B. Waiver of Postconviction Remedies
been sentenced to death because of his intellectual
disability and that his [*3] counsel failed to Lard next argues that the circuit court's finding that
investigate his adaptive functioning deficits he was competent to waive was clearly erroneous.
Appendix A - 2

Page 3 of 6
2020 Ark. 110, *4; 595 S.W.3d 355, **357; 2020 Ark. LEXIS 105, ***4

A defendant sentenced to death will be able to
forgo postconviction remedies only if he has been
judicially determined to have [***5] the capacity
to understand the choice between life and death and
to knowingly and intelligently waive any and all
rights to appeal his sentence. Roberts v. State, 2016
Ark. 118, 488 S.W.3d 524. This court has required
that a timely mental-competency evaluation be
completed in order for the circuit court to determine
if the defendant is presently competent to waive.
Roberts v. State, 2013 Ark. 57, at 9, 426 S.W.3d
372, 377. We will not disturb the circuit court's
decision on the issue of waiver unless its findings
are clearly erroneous. Roberts, 2016 Ark. 118, at 6,
488 S.W.3d at 528. A finding is clearly erroneous
when, although there is evidence to support it, the
appellate court, after reviewing the entire evidence,
is left with the definite and firm conviction that a
mistake has been made. Id.

Lard with mild intellectual disability. He based his
opinion on Lard's low IQ and adaptive behavior
deficits. Unlike Dr. Casey, Dr. Reschly opined that
Lard's adaptive behavior [**358] deficits had been
lifelong and a result of his low functional
intelligence. However, Dr. Reschly did not render
an opinion on whether Lard's mild intellectual
disability precluded Lard from knowingly and
intellectually waiving his right to appeal. Instead,
he stated that a person with a mild intellectual
disability "would be impaired in thinking about [the
waiver]
and
understanding
the
consequences, [***7] and then making a good
judgment about that complex issue."

Lard also testified at the hearing. He explained that
it was always his intention to waive his
postconviction appeal after his direct appeal was
denied. He wanted to waive his postconviction
rights because he wanted to avoid "wasting away in
After Lard requested waiver of his postconviction prison" and the difficulties that the process would
remedies, the circuit court ordered him to undergo have on his family and the victim's family. He
competency testing by a disinterested psychiatrist understood that if he pursued his postconviction
or qualified psychologist. Dr. John Casey, a rights, he could possibly obtain a new [*6] trial or
forensic psychiatrist with the Arkansas State be resentenced to life, but if he waived his
Hospital, evaluated Lard in May 2018. Dr. Casey postconviction rights, he was choosing to have his
diagnosed Lard with borderline intellectual execution carried out. He also stated that he
functioning, but not an intellectual disability. At the understood that death means "[y]ou're no longer,
waiver hearing, Dr. Casey explained that an you cease to exist. Anything and everything about
individual with an intellectual disability has a low you are nothin' but memories. And in time,
IQ and has adaptive-functioning deficits that are memories fade."
specifically [***6]
[*5] attributable to that
person's subaverage intelligence. Dr. Casey After the competency hearing, the circuit court
testified that Lard's IQ scores of 70 and 72 were concluded that Lard was competent to knowingly
within the low-average range of intelligence and and intelligently waive his postconviction relief and
acknowledged that Lard had some adaptive- had the capacity to choose between life and death
functioning issues. In Dr. Casey's opinion, Lard's and to have his death sentence carried out. The
borderline intellectual-functioning diagnosis did not court stated that Lard understood that his decision
render him incapable of appreciating the difference to waive his Rule 37.5 petition could likely result in
between life and death or of knowingly and his execution. The circuit court also explained that
while [***8] Dr. Reschly diagnosed Lard with
intelligently waiving his right to appeal.
mild intellectual disability, he did not examine or
Dr. Reschly also testified at the competency interview Lard specifically to determine Lard's
hearing. Dr. Reschly had not evaluated Lard since competency to waive, and he did not opine that
October 2015 when his opinions were offered in Lard lacked the competency to waive.
support of Lard's Rule 37.5 petition. He diagnosed
Appendix A - 3

Page 4 of 6
2020 Ark. 110, *6; 595 S.W.3d 355, **358; 2020 Ark. LEXIS 105, ***8

We cannot say that the circuit court's conclusion
that Lard has the capacity to understand the choice
between life and death and to knowingly and
intelligently waive his postconviction rights to
appeal was clearly erroneous.1 While Dr. Casey and
Dr. Reschly rendered different diagnoses, only Dr.
Casey evaluated Lard and rendered an opinion on
Lard's competency to waive. And competency to
waive was the only issue before the circuit [*7]
court. Dr. Casey specifically concluded that Lard
was competent despite his borderline intellectualfunctioning diagnosis. Although Dr. Reschly
diagnosed Lard with mild intellectual functioning,
he did not testify that Lard lacked the capacity to
understand his choice or to waive knowingly and
intelligently. Additionally, Lard's testimony, which
the circuit court found cogent, demonstrated he
understood his decision and its consequences.
Lard relies on our decision in Roberts to support his
argument that we should reverse the circuit court's
decision. [***9] 2016 Ark. 118, 488 S.W.3d 524.
But Roberts is distinguishable. There, the experts
agreed that Roberts suffered from schizophrenia;
Roberts's expert, Dr. Fujii, opined that he was
incapable of waiving; and the State's expert, Dr.
Peacock, failed to reach a conclusion on Roberts's
competency to waive. Id. at 6-7, 488 S.W.3d at
528-29. We noted that "although Dr. Peacock
refused to offer an opinion on the specific inquiry
as to whether Roberts is competent, his remaining
[**359] testimony suggests that Roberts's
psychosis indeed impacts his ability to choose
between life and death and knowingly and
intelligently waive his postconviction rights." Id. at
7, 488 S.W.3d at 529. Here, Dr. Casey opined that,
in his opinion, Lard is competent to waive, and Dr.

1 Lard

argues that the circuit court did not make specific findings
with respect to the competing opinions of Dr. Reschly and Dr.
Casey, and because no specific findings were made, we owe the
circuit court no deference. We disagree. The circuit court's order
explains the opinions of both experts and clearly defers to the
findings of Dr. Casey, who evaluated Lard more recently and
specifically to determine Lard's competency to waive. The circuit
court also noted that Dr. Reschly did not opine as to the issue before
the court.

Reschly, despite diagnosing Lard with mild
intellectual disability, was unable to affirmatively
rebut that conclusion.
We therefore hold that the circuit court's finding
that Lard has the capacity to knowingly and
intelligently waive his postconviction remedies,
including his Rule 37.5 petition, was not clearly
erroneous. And we affirm the circuit court's
dismissal of Lard's Rule 37.5 petition.
Affirmed.
[*8] Special Justice GREGORY L. VARDAMAN
joins.
WYNNE, J., concurs.
HART, J., dissents.
KEMP, C.J., not participating.
Concur by: ROBIN F. WYNNE

Concur
ROBIN F. WYNNE, Justice, [***10] concurring.
While I fully join the majority's opinion on the
second point, I write separately to express my
concern with the majority's disposition of point one
on ripeness grounds. The majority holds that Lard's
claim that he is ineligible for the death penalty
under Atkins v. Virginia, 536 U.S. 304, 122 S. Ct.
2242, 153 L. Ed. 2d 335 (2002), because he is
intellectually disabled is not ripe for this court's
review because his execution date has not been set.
However, the cases the majority cites do not
support this position. In Isom v. State, 2015 Ark.
219, 462 S.W.3d 638, this court held that Isom's
claim that he was incompetent to be executed due
to a stroke he suffered while incarcerated was not
ripe for review without an execution date being set.
We wrote, "Although we acknowledge Isom's
contention that he has reached his maximum
recovery and that he will not regain any additional

Appendix A - 4

Page 5 of 6
2020 Ark. 110, *8; 595 S.W.3d 355, **359; 2020 Ark. LEXIS 105, ***10

functioning, we decline to evaluate his competency
for execution in the absence of an execution date
because Isom's condition could change, positively
or negatively, before Isom's execution date is set."
Isom, 2015 Ark. 219, at 19, 462 S.W.3d at 650. In
Nooner v. State, 2014 Ark. 296, 438 S.W.3d 233,
this court held that Nooner's claim of incompetency
to be executed due to a severe case of
schizophrenia was not ripe for review in that
proceeding on a motion to recall the direct-appeal
mandate. Nooner's counsel [***11] conceded as
much in that case; counsel intended to seek a stay
of execution, should one be set, based on the [*9]
contention that Nooner is incompetent for
execution under Panetti v. Quarterman, 551 U.S.
930, 127 S. Ct. 2842, 168 L. Ed. 2d 662 (2007), and
Arkansas Code Annotated section 16-90-506(c)-(d)
(Repl. 2006). In the recent case Roberts v. State,
2020 Ark. 45, 592 S.W.3d 675, this court affirmed
the denial of Roberts's Rule 37.5 petition.
Regarding his argument that he was ineligible for
the death penalty due to intellectual disability, we
noted that the issue had been raised and rejected
before trial, that this court had affirmed on direct
appeal, and that the issue could not be reargued in
postconviction proceedings. In short, none of these
cases stands for the proposition that a claim of
intellectual disability (as opposed to incompetency
to be executed) is not ripe until an execution date is
set.

focus on the inmate's competency at the time of
execution. This makes sense because
competency can be lost or regained over time.
As stated in Moore [v. Texas, 137 S. Ct. 1039,
197 L. Ed. 2d 416 (2017)], . . . a core element
of intellectual disability is "the onset of these
deficits while still a minor." 137 S. Ct. at 1045.
In contrast to Ford, [Stewart v.] MartinezVillareal[, 523 U.S. 637, 118 S. Ct. 1618, 140
L. Ed. 2d 849 (1998)], and Panetti [v.
Quarterman, 551 U.S. 930, 127 S. Ct. 2842,
168 L. Ed. 2d 662 (2007)], Atkins concerned
intellectual disability, not competency. In
creating "'a substantive restriction on the State's
power to take the life' of a mentally retarded
offender," Atkins [v. Virginia, 536 U.S. 304,
122 S. Ct. 2242, 153 L. Ed. 2d 335 (2002),]
[*10] focused exclusively on the prisoner's
culpability or reliability at the time that the
crime was committed. Atkins, 536 U.S. at 321
(quoting Ford, 477 U.S. at 405).
Davis, 854 F.3d at 971 (parallel citations omitted).

Here, Lard claims that he is intellectually disabled
per Atkins. In Arkansas, "intellectual disabilit[y]"
means "significantly below-average general
intellectual functioning accompanied by a
significant deficit or impairment in adaptive
functioning manifest in the developmental period,
but no later than eighteen (18) years of age," and
Intellectual disability and incompetency to be "[a] deficit in adaptive behavior." Ark. Code Ann. §
executed are two distinct claims. The Eighth Circuit 5-4-618(a)(1)(A)-(B) (Supp. 2019) (emphasis
Court of Appeals recognized this distinction in added). Unlike a competency claim based on
Davis v. Kelley, 854 F.3d 967 (8th Cir. 2017), when mental illness, intellectual disability is, by
it wrote that the issue of intellectual disability "does definition, unchanging after age [***13] eighteen.
not suddenly become ripe when the execution date Accordingly, there is no reason to hold that Lard's
is imminent." Davis, 854 F.3d at 973. In rejecting claim of intellectual disability is not ripe. Rather, in
Davis's motions to recall the mandate or, my view, the claim is procedurally barred by the
alternatively, for leave to file a successive habeas particular posture of this appeal. The intellectualpetition [**360] and to stay his execution based disability claim could have been raised in Lard's
on an Atkins claim, the Eighth Circuit [***12] Rule 37.5 petition, but he has waived his right to
wrote:
pursue that petition.
Ford [v. Wainwright, 477 U.S. 399, 106 S. Ct.
2595, 91 L. Ed. 2d 335 (1986),] and its progeny

Dissent by: JOSEPHINE LINKER HART

Appendix A - 5

Page 6 of 6
2020 Ark. 110, *10; 595 S.W.3d 355, **360; 2020 Ark. LEXIS 105, ***13

had not made the pretrial filing required by section
5-4-618. While the circuit court granted the State a
Dissent
lengthy delay to enable it to search for a way to
oppose Mr. Lard's petition--from November 18,
2015 to July 25, 2016--the hearing was never
JOSEPHINE LINKER HART, Justice, dissenting. In actually completed and the circuit court never ruled
affirming the circuit court's refusal to rule on Mr. on Mr. Lard's petition.
Lard's eligibility to be sentenced to death, the
majority has conflated the rule of law announced in I am mindful that Mr. Lard moved to dismiss his
Atkins v. Virginia, 536 U.S. 304, 122 S. Ct. 2242, petition prior to the completion of the
153 L. Ed. 2d 335 (2002), with the law set forth in hearing, [***15] and the circuit court's attention
Arkansas Code Annotated section 5-4-618. While shifted to the issue of whether Mr. Lard was [*12]
both concern intellectually disabled individuals, competent to waive his right to post-conviction
they each address distinctly different situations. proceedings. The circuit court erred in doing so.
Atkins and its progeny proscribe the execution of a While Mr. Lard certainly had an interest in the Rule
person with an intellectual disability at the time of 37 proceeding, the issue under consideration was
the crime. Section 5-4-618 proscribes sentencing to the State of Arkansas's policy of not allowing
death a defendant with an intellectual disability. intellectually disabled persons to be sentenced to
[*11] Atkins is directed to the executive branch, death. Mr. Lard was not empowered by section 5-4which is charged with carrying out executions, and 618, or any other law, to circumvent the State's
section 5-4-618 is directed toward the judicial clearly articulated public policy. Given the
compelling State interest in making sure that the
branch, which handles the trial.
imposition of the death penalty strictly complies
It is not mere happenstance that asserting relief with the Constitution, Mr. Lard's motion to dismiss
under these respective authorities must happen at should have been denied. Accordingly, this case
different stages of the execution process. As the should be reversed and remanded to the circuit
majority [***14] correctly notes, an Atkins claim court to complete the inquiry that was set in motion
can only be made after a death warrant has issued. by Mr. Lard's Rule 37 petition.
See Isom v. State, 2015 Ark. 219, 462 S.W.3d 638.
Conversely, section 5-4-618 charges an accused I respectfully dissent.
with raising his intellectual disability prior to trial.
This distinction is pivotal in the case before us
End of Document
because the proceeding under review arose from
the filing of a claim of ineffective assistance of
counsel under Arkansas Rule of Criminal
Procedure 37.1. It is impossible to ignore that the
allegations in Mr. Lard's Rule 37 petition concern
his trial counsel's failure to invoke section 5-4-618.
[**361] Mr. Lard's undisputed intellectual deficit,
and his trial counsel's admitted failure to invoke
section 5-4-618 is a structural error that the circuit
court--and this court--should not ignore. Prior to
halting the Rule 37 hearing, Mr. Lard made a prima
facie case that he was ineligible to be sentenced to
death. Further, he established that his trial counsel
Appendix A - 6

FILED

SEP 12 2018
GREENE CO. CIRCUIT CLERK

Brent Davis

Counties

Clay
Craighead
Crittenden
Greene
Mississippi
Poinsett

Circu it Judge
Second Jud icial District
P.O. Box 1902
Jonesboro, Arkansas 72403-1902

Trial Court Administrator
Judith Reid Kincade
P.O. Box 1902
Jonesboro, AR 72403-1902
PH: (870) 933 -4579
Fax: (870) 933-459 6
jreid@2ndjudicial.org

Telephon e: (870) 933-4579
Fax: (870) 933-4596
Email: bdavis@ 2ndjudicia1.org

September 10, 2018

Mr. Lee D. Short, Attorney
425 West Broadway, Suite A
North Little Rock, AR 72114
Mrs. Aarika Thompson
Deputy Prosecuting Attorney
400 Market Street
Harrisburg, AR 72432
RE:

Motion for Post-Conviction Hea ring
State of AR v. Jerry Dean Lard; Greene County, AR; Case No. CR-12-173

Dear Mr. Short and Mrs. Thompson :
I am in receipt of the Motion for Post-Conviction Hearing filed in behalf of Mr. Lard, and the State's
Response the reto. Defendant requests in his Motion that the Court address two issues "now pending
before the court/' as previous iy raised :
(1) The Court must determine whether Defendant is eligible for the death penalty; and
(2) Whether Defendant is competent to waive his post-conviction remedies .
Defendant makes clear in his motion that he is requesting and anticipating that this Court will consider
evidence presented on the mental retardation issue and will make a determination as to whether
Defendant is mentally retarded, before address ing the issue as to Defendant's competency to waive his
Rule 37.5 relief.

109
Appendix B - 7

The Court intends to address at this hearing only one issue:
Whether Mr. Lard is competent to
waive his post-conviction remedies and should be allowed to withdraw his previous request for relief
pursuant to Rule 37.5 of the Arkansas Rules of Criminal Procedure .
The Court determines that since the claim of mental retardation was not raised at trial, and was first
raised in conjunction with the Rule 37.S proceedings, there is no procedural basis for the Court to
consider the mental retardation issue. The sole issue to be addressed at the hearing will be whether
Defendant is competent to waive his Rule 37.S relief by withdrawing his pending petition.
My Trial Court Administrator will be in touch with you and your office to schedule a date to hear the
motion and receive evidence/testimony regarding Defendant's competency to waive his Rule 37.5 rights
to post-conviction relief.

Brent Davis
Circuit Judge
BD/jrk
c.c.:

Court File

110
Appendix B - 8

FILED
IN THE CIRCUIT COURT OF GREENE COUNTY, ARKANSAS
CRIMINAL DIVISION

State of Arkansas

v.

JA~ \2019
GR££NE CO. C1RCJ

Plaintiff
Case No. 28CR-12-173
Defendant

JERRY D. LARD

ORDER GRANTING DEFENDANT'S REQUEST
TO DISMISS HIS PETITION FOR POST-CONVICTION RELIEF

This matter came on for hearing on December 5, 2018. The only issue before the
Court was to determine if Defendant, Jerry Lard, ,vas competent to waive further
proceedings in regard to his claim for post-conviction relief under ARCrP 37.5, and thus
have that Petition dismissed. The applicable standard applied by this Court in making the
determination is the standard approved in State v. Roberts, 2013 Ark. 57; 426 S.W. 3d 372
(2013), as set forth in Franz v. State, 286 Ark. 181, 754 S.\V. 2d 839 (1988).
" ...., a defendant sentenced to death will be able to forego a state appeal
only if he has been judicially determined to have the capacitv to understand
the choice between life and death and to knowingly and intelli2entlv waive
anv and all rights to appeal his sentence."
Roberts confirmed that this standard applied to the waiver of post-conviction relief
for a defendant sentenced to death. The Roberts decision further requires that a recent
competency examination be performed to determine whether the defendant had the
capacity to choose between life and death, and to knowingly and intelligently waive all
rights to post-conviction review of the death sentence.

113
Appendix C - 9

CtfRK

Appearing for the State of Arkansas was Scott Ellington, Prosecuting Attorney for
the Second Judicial District. Defendant Jerry Lard was present along with his attorney,
Lee D. Short. Testimony was received at the hearing from Jerry Lard, John M. Casey,
M.D. and Daniel J. Reschly, Ph.D. Additionally, the 13-page Forensic Report of Dr. Casey,
dated May 29, 2018, was introduced into evidence.

Also, a written document entitled

"Executive Summary", written by Dr. Reschly date November 16, 2015, and based on part
on an interview of Jerry Lard conducted on October 5-6, 2015, was introduced. Dr.
Casey's report was based on a face-to-face examination of Lard on May 9, 2018, pursuant
to Order of the Court. Pursuant to that Order, Dr. Casey specifically addressed in his
report and testimony his findings and opinions regarding the pertinent questions to be
answered by the Court under the legal standards set forth above.
FINDINGS
1. Based on the testimony of Jerry Lard at the hearing, as well as his statements to Dr.

Casey during his examination, it is clear that Lard understands that a decision to
waive his Rule 37.5 petition could likely result in his death sentence being executed.
2. Jerry Lard's testimony and statements to Dr. Casey exhibit that he has a sound
understanding of the possible and likely legal consequences of his decision to waive.
3. Jerry Lard understands the choice between life and death and clearly articulates
that understanding. He articulates in both his testimony and statements to Dr.
Casey a rational explanation for his decision to waive his post-conviction appeal that
takes into consideration his support of the death penalty and its appropriateness for
his case; his desire to avoid "wasting away" in prison; and the relief and finality
provided to his family and the victim's family if his sentence were executed.

114
Appendix C - 10

4. The opinions of Dr. Casey in his report and testimony represent a thorough and
accurate assessment of Jerry Lard's mental condition, his mental diagnosis and his
capacity to understand the choice between life and death, as well as his capacity to
knowingly and intelligently waive is rights to pursue post-conviction relief.
5. The examination and evaluation performed by Dr. Casey were conducted in late
May and accurately reflected Jerry Lard's mental status and competency to
knowingly and intelligently make a waiver of his post-conviction relief.
6. The testimony of Dr. Reschly was based on an evaluation performed October 5-6,
2015, for the sole purpose to determine whether Jerry Lard met the criteria for a
diagnosis of mental retardation, also referred to as Intellectual Disability.

Dr.

Reschly's report and testimony were to the effect that Jerry Lard was "mildly
intellectually disabled." Dr. Reschly performed no exam or interview with Jerry
Lard specifically designed to ascertain Lard's basis for his desire to waive these
rights; his reasoning behind such a decision; or his capability to understand the
legal issues and options involved in his decision. Dr. Reschly's conclusion was solely
based on his diagnosis of mild intellectual disability. He did not opine that Lard
lacked the capacity to understand the difference between life and death, and to
knowingly and intelligently waive any and all rights to appeal, but that the condition
diagnosed would impair his ability to make decisions.
7. Dr. Casey diagnosed Jerry Lard as having "borderline intellectual functioning", not
mild intellectual disability, and reached his conclusions and opinions as to Lard's
competency and capacity to knowingly and intelligently make such decision based
on that diagnosis, plus Lard's specific explanations and reasonings for his decision.

115
Appendix C - 11

8. Jerry Lard was not taking any medications or under the influence of any
medications at the time he was examined by Dr. Casey in May of 2018, or at the
time he testified before the Court in December of 2018.
CONCLUSION
After a consideration of all the relevant evidence and testimony, and applying the
standard for determining competency to make such a waiver as previously set forth in this
Order, the Court finds that Jerry Lard is competent to knowingly and intelligently waive
all rights to post-conviction relief and he has the capacity to choose between life and death
and to elect to have his death sentence executed. His decision to waive his post-conviction
relief is unequivocal, as set forth in his statements to his attorneys, Dr. Casey and his
testimony of December 5, 2018.
The Petition for Post-Conviction Relief pursuant to ARCrP 37.5 filed January 29,
2015, is hereby dismissed.

Brent Davis, Circuit Judge

116
Appendix C - 12

FORMAL ORDER
STATE OF
SUPREME

ARKANSAS,

COURT

)

)

scr.

)

BE IT REMEMBERED, THAT A SESSION OF THE SUPREME COURT
BEGLIN AND HELD IN THE CITY OF LITTLE ROCK, ON APRIL 30,2020, AMONGST
OTHERS WERE THE FOLLOWING PROCEEDINGS, TO-WIT:

SUPREME COURT CASE NO. CR-19-351

APPELLANT

JERRY LARD

V. APPEAL FROM GREENE COLINTY CIRCUIT COURT -28CP.-12-173
APPELLEE

STATE OF ARKANSAS

APPELLANT'S PETITION FOR REHEARING IS DENIED. SPECIAL JUSTICE
GREGORY L. VARDAMAN AGREES. HART, J., WOULD GRANT. KEMP, C.J., NOT
PARTICIPATING. APPELLANT'S MOTION TO STAY THE MANDATE IS DENIED.
SPECIAL JUSTICE GREGORY L. VARDAMAN AGREES. HUDSON, HART, AND
WYNNE, J.I.. WOULD GRANT. KEMP, C.J., NOT PARTICIPATING.

IN TESTIMONY, THAT THE ABOVE IS A TRUE COPY OF
THE ORDER OF SAID SUPRE,ME COURT, RENDERED IN
THE CASE HEREIN STATED, I. STACEYPECTOL.
CLERK OF SAID SUPREMECOURT. HEREUNTO

SET MY HAND AND AFFIX THE SEAL OF SAID
SUPREMECOURT, AT MY OFFICE IN THE CITY OF
LITTLE ROCK. THIS 3OTH DAY OF APRIL,2O2O.

DEPUTY CLERK

ORIGINAL TO CLERK
CC: LEE D. SHORT
REBECCA KANE,, ASSISTANT ATTORNEY GENERAL
HON. BRENT DAVIS, CIRCUIT JUDGE

Appendix D - 13

